No.

 

IN THE
Supreme Court of the United States

EDWARD MCCAIN,
Petitioner,

v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit
CERTIFICATE OF SERVICE

I, Eric J. Brignac, a member of the Bar of this Court, hereby certify that on
this 8» day of March, 2021, I have served the enclosed motion for leave to proceed
In forma pauperis and petition for a writ of certiorari on each party to the above
proceeding or that party’s counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States
mail, properly addressed to each of them and with first-class postage prepaid. The
names and addresses of those served are:

ELIZABETH B. PRELOGAR

ACTING SOLICITOR GENERAL OF THE UNITED STATES

UNITED STATES DEPARTMENT OF JUSTICE

950 Pennsylvania Avenue, N.W.

Room 5616

Washington, D.C. 20530-0001

Counsel for Respondent
I further certify that all parties required to be served have been served.

 

OFFICE OF THE FEDERAL PUBLIC DEFENDER
EASTERN DISTRICT OF NORTH CAROLINA
150 Fayetteville St., Suite 450

Raleigh, N.C. 27601

(919) 856-4236

eric_brignac@fd.org

Counsel for Petitioner
